No. 20-549

a CERI CATE OF COMPLIANCE
IN THE

SUPREME COURT OF THE UNITED STATES

JOHN FARROW and JEROME WADE,

Petitioners,
v.

CONTRA COSTA COUNTY,

Respondent,

As required by Supreme Court Rule 33.1(h), I certify that the opposition to petition
for writ of certiorari contains 5,957 words, excluding the parts of the petition that
are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct,

  
   

Executed on January 14, 2021.

 

. Ri AKER
Deputy County Counsel
Attorney for Respondent
CONTRA COSTA COUNTY
